RSVP Embezzler Sentenced

A former Retired & Senior Volunteer Program (RSVP) director has been sentenced to
five years of probation and ordered to repay the more than $120,000 she embezzled
from a Corporation-supported program in Morgantown, WV.

The case was investigated by OIG Special Agent William Ruley.

Amy Mick, 32, admitted to looting the RSVP funds from 2006 to 2009 by using a
program credit card for personal purchases and writing and forging checks to herself
from the program’s account. Mick, who was sentenced July 22, 2010, could have
faced up to 20 years in prison after pleading guilty to embezzlement and forgery.

“To a large degree, your reason for living for the next five years will be to pay restitution
for what you have stolen,’ Monongalia County Circuit Judge Russell Clawges reportedly
told Mick as he handed down his sentence. “If that means working two jobs, you’ll work
two jobs.”

Mick managed the RSVP for the Monongalia County Board of Parks and Recreation
Commissioners. An official of that agency blamed Mick’s misdeeds for an ensuing loss
of Corporation grant funding and the shutdown of the senior citizens’ program.
